APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Order of the Supreme Court of Colorado Denying
Petition for Writ of Certiorari (July 29, 2019) .. 1a
Mandate of the Colorado Court of Appeals
(August 1, 2019) ................................................. 2a
Opinion of the Colorado Court of Appeals
(December 13, 2018) ........................................... 3a
Opinion of the Industrial Claim Appeals Office
(November 14, 2017) ........................................ 19a
REHEARING ORDER
Order of the Colorado Court of Appeals Denying
Petition for Rehearing (January 10, 2019) ...... 33a

App.1a
ORDER OF THE SUPREME COURT OF
COLORADO DENYING PETITION
FOR WRIT OF CERTIORARI
(JULY 29, 2019)
COLORADO SUPREME COURT
________________________
LORI MADDEN-GRAMMER,

Petitioner,
v.
COLORADO HOSPITAL ASSOCIATION TRUST,
POUDRE VALLEY HOSPITAL, and
INDUSTRIAL CLAIM APPEALS OFFICE,

Respondents.

________________________

Supreme Court Case No: 2019SC45
Certiorari to the Court of Appeals, 2017CA2066
Industrial Claim Appeals Office, WC3928088
Upon consideration of the Petition for Writ of
Certiorari to the Colorado Court of Appeals and after
review of the record, briefs, and the judgment of said
Court of Appeals,
IT IS ORDERED that said Petition for Writ of
Certiorari shall be, and the same hereby is, DENIED.
BY THE COURT, EN BANC, JULY 29, 2019.

App.2a
MANDATE OF THE
COLORADO COURT OF APPEALS
(AUGUST 1, 2019)
COLORADO COURT OF APPEALS
________________________
LORI MADDEN-GRAMMER,

Petitioner,
v.
INDUSTRIAL CLAIM APPEALS OFFICE,
POUDRE VALLEY HOSPITAL, and
COLORADO HOSPITAL ASSOCIATION TRUST,

Respondents.

________________________

Court of Appeals Case Number: 2017CA2066
Industrial Claim Appeals Office UR 1605
Industrial Claim Appeals Office WC3928088
This proceeding was presented to this Court on
the record on appeal. In accordance with its announced
opinion, the Court of Appeals hereby ORDERS:
ORDER AFFIRMED
Polly Brock
Clerk of the Court of Appeals
Date: August 1, 2019

App.3a
OPINION OF THE
COLORADO COURT OF APPEALS
(DECEMBER 13, 2018)
COLORADO COURT OF APPEALS
________________________
LORI MADDEN-GRAMMER,

Petitioner,
v.
INDUSTRIAL CLAIM APPEALS OFFICE
OF THE STATE OF COLORADO;
POUDRE VALLEY HOSPITAL; and
COLORADO HOSPITAL ASSOCIATION TRUST,

Respondents.

________________________

Court of Appeals No. 17CA2066
Division II
Industrial Claim Appeals Office of the
State of Colorado WC No. 3-928-088
Before: DAILEY Judge,
LICHTENSTEIN and VOGT, JJ.
¶ 1 This workers’ compensation claim asks us to
review the procedures governing appeals of medical
utilization reviews (MURs) under section 8-43-501,
 Sitting by assignment of the Chief Justice under provisions of
Colo. Const. art. VI, § 5(3), and § 24-51-1105, C.R.S. 2018.

App.4a
C.R.S. 2018. Since sustaining injuries in a work-related
accident thirty years ago, claimant, Lori MaddenGrammer, has been receiving on-going medical
maintenance benefits. Her employer, Poudre Valley
Hospital, and its insurer, Colorado Hospital Association Trust (collectively employer), requested an MUR
to challenge the reasonableness and necessity of some
of the treatment claimant underwent. An administrative law judge (ALJ) and the Industrial Claim Appeals
Office
(Panel)
upheld
the
MUR
panel’s
recommendation for a change of provider. We likewise
affirm.
I.

Procedural and Factual Background

¶ 2 The record and procedural history in this
case are lengthy and complex. For purposes of this
appeal, we will limit our background discussion to
those facts relevant to the issue currently before us.
¶ 3 Claimant sustained multiple, admitted, workrelated injuries secondary to a 1988 automobile accident. She later developed complex regional pain
syndrome (CRPS) as a result of those injuries. Her
symptoms subsequently worsened, and, by 2008, she
was no longer able to work.
¶ 4 Thereafter, claimant moved to Nevada where,
beginning in January 2009, she came under the care
of Dr. Brian Lemper. Dr. Lemper treated claimant
with platelet rich plasma (PRP) injections. In 2014, he
testified that he had performed over 100 PRP
injections on claimant. Both he and claimant praised
the injections, which Dr. Lemper characterized as a
“significant success” that enabled claimant to “walk
with a normal appearing foot and stop using her
narcotic medications.” According to Dr. Lemper, there

App.5a
“was noted improvement of [claimant’s] right ankle
range of motion as well as considerable improvement
of her right ankle swelling.”
¶ 5 However, in 2013, employer questioned the
reasonableness and necessity of so many PRP injections and applied for a hearing to challenge the
treatment. As employer points out, the Medical Treatment Guidelines only authorize three PRP injections:
“If PRP is found to be indicated in these select
patients, the first injection may be repeated twice
when significant functional benefit is reported but the
patient has not returned to full function.” Colo. Dept.
of Labor, Med. Treatment Guidelines, Rule 17, Ex. 6,
Lower Extremity Guidelines, Sec. F(6)(d), pp. 150-151.
¶ 6 After conducting a two-day hearing on the
issues raised by employer, ALJ Allegretti found that
claimant does indeed suffer from CRPS, but that “the
benefit of the PRP therapy is temporary and not longterm. . . . [I]t is found that overall, [c]laimant’s
condition has deteriorated from the time period prior
to when she first received PRP injections to the
present.” Based on this finding, ALJ Allegretti ruled
that the PRP injections were not “reasonably necessary to cure or relieve the effects of [claimant’s] work
injury.” Her order terminated the treatment.
¶ 7 Despite ALJ Allegretti’s order, Dr. Lemper
continued administering PRP injections to claimant.
To challenge Dr. Lemper’s continued use of the treatment, employer then requested an MUR pursuant to
section 8-43-501. Three physicians were selected to
conduct independent reviews of Dr. Lemper’s postorder treatment of claimant: Dr. Lynne Fernandez,
Dr. Joseph Fillmore, and Dr. J. Ethan Moses.

App.6a
¶ 8 All three physicians opined that the PRP
treatments Dr. Lemper administered were not reasonably necessary and were “excessive.” Dr. Fernandez
supported her conclusion with two primary observations: (1) that any relief claimant received from the
treatment was temporary, lasting “6 to 8 weeks” after
which “the pain returns to pre-injection levels”; and,
(2) that Dr. Lemper’s and claimant’s self-reported
improvement with the treatment was not corroborated
by other physicians, whose records indicated that
claimant’s condition had deteriorated during the time
period in question. Likewise, Dr. Moses surmised that
Dr. Lemper’s clinic note on 8/5/15 is where he
begins to diverge from reasonable and
necessary treatment. He states that Ms.
Madden-Grammer was “pleading for PRP
injections,” and despite the 22 previous PRP
injections into the low back and 19 into the
ankle that provided no long-term benefit, he
decides to move forward with even more PRP
injections into multiple body parts.
Each MUR physician, having personally reviewed
claimant’s medical records, independently concluded
that Dr. Lemper should not be permitted to continue
treating claimant.
¶ 9 Noting that “the members of the reviewing
committee unanimously recommended that a change
of provider be made . . . [and] that the payment of fees
be retroactively denied,” the Director of the division of
workers’ compensation ordered a change of provider
and retroactive denial of payments to Dr. Lemper.
Claimant admits that, in compliance with section 8-

App.7a
43-501(4) of the MUR statute, employer then referred
her to other physicians for treatment.1
¶ 10 Claimant appealed the Director’s decision
to an ALJ. ALJ Felter reviewed the record—which
included thousands of pages of medical records, as
well as the opinions of the MUR panelists, and
claimant’s and Dr. Lemper’s written statements—but
he did not conduct a hearing because the MUR statute
does not provide for one. After considering the
voluminous documentary evidence, ALJ Felter ruled
that claimant had not met her burden of clearly and
convincingly overcoming the Director’s decision
adopting the MUR committee’s recommendations. He
found that all three physician members of the MUR
panel recommended a change of physician, and that
“it is highly likely, unmistakable, and free from
serious and substantial doubt that Dr. Lemper’s treatment of [c]laimant was not reasonably appropriate
according to professional standards to cure and relieve
[c]laimant of the effects of the December 23, 1988
work-related injury.” ALJ Felter therefore upheld the
Director’s order to change providers and relieve
employer of the obligation of paying “for any of Dr.
Lemper’s medical services after August 20, 2015.”
¶ 11 On review, the Panel affirmed his decision.
The Panel rejected claimant’s contention that ALJ
Felter employed the wrong standard and thus misapplied the law, holding instead that claimant was
1 Indeed, in her statement opposing the MUR panel, claimant
identified at least three physicians she saw after Dr. Lemper’s
care was terminated, Drs. Robert Odell, Michael Yudez, and
Joshua Prager. We have not, however, found reports of those
visits in the record, and neither party has pointed us to them.

App.8a
confusing the test for post-MMI medical maintenance
benefits with the burden of proof applicable in MUR
reviews. The Panel also held that it could not disturb
ALJ Felter’s order because substantial evidence in the
record supported it.
¶ 12 Claimant now appeals from the Panel’s
decision.
II.

Due Process

¶ 13 Claimant first contends that the MUR
statute, section 8-43-501, unconstitutionally violates
her right to due process by depriving her of a protected
property interest—her workers’ compensation benefits—without a hearing. Specifically, claimant contends that section 8-43-501 deprives her and other
litigants of due process because it omits an avenue for
a claimant to request a hearing to challenge an MUR
panel’s recommendations. We are not persuaded,
however, that claimant suffered any deprivation of
her constitutional rights.
A. Law Governing Due Process Analysis
¶ 14 “The fundamental requisites of due process
are notice and the opportunity to be heard by an
impartial tribunal.” Wecker v. TBL Excavating, Inc.,
908 P.2d 1186, 1188 (Colo. App. 1995). “The essence of
procedural due process is fundamental fairness.”
Avalanche Indus., Inc. v. Indus. Claim Appeals Office,
166 P.3d 147, 150 (Colo. App. 2007), aff’d sub nom.
Avalanche Indus., Inc. v. Clark, 198 P.3d 589 (Colo.
2008); see also Kuhndog, Inc. v. Indus. Claim Appeals
Office, 207 P.3d 949, 950 (Colo. App. 2009) (Due process
“requires fundamental fairness in procedure.”).

App.9a
¶ 15 A claimant asserting that a statute violates
his or her rights must demonstrate that the statute “is
unconstitutional beyond a reasonable doubt.” Peregoy v.
Indus. Claim Appeals Office, 87 P.3d 261, 265 (Colo.
App. 2004). And, when analyzing the statute’s
constitutionality, we must presume “that the statute
is valid.” Calvert v. Indus. Claim Appeals Office, 155
P.3d 474, 477 (Colo. App. 2006).
B. Claimant Cannot Establish That She Was
Deprived of a Right
¶ 16 To pursue a due process claim, a claimant
must first meet the threshold burden of establishing a
due process violation.
“The first inquiry in every due process
challenge is whether the plaintiff has been
deprived of a protected interest in ‘property’
or ‘liberty.’” It is necessary to consider
whether a property right has been identified,
whether government action with respect to
that property right amounted to a deprivation, and whether the deprivation, if one is
found, occurred without due process of law.

Whatley v. Summit Cty. Bd. of Cty. Comm’rs, 77 P.3d
793, 798 (Colo. App. 2003), (quoting Am. Mfrs. Mut.
Ins. Co. v. Sullivan, 526 U.S. 40, 59 (1999)).
¶ 17 Claimant cannot meet this burden. The
Colorado Supreme Court previously held that no workers’ compensation claimant has a property interest in
receiving a particular type of treatment from a specific
physician. See Colo. Comp. Ins. Auth. v. Nofio, 886
P.2d 714, 719 (Colo. 1994). There, the supreme court
held that an injured worker is not entitled to a de novo

App.10a
hearing where the worker’s benefits “have been
changed, not terminated.” Id. As the supreme court
explained, even though workers’ compensation benefits
are a protected property interest, see Whiteside v.
Smith, 67 P.3d 1240, 1247 (Colo. 2003), an injured
worker “has no protected property interest in receiving
care from a specific health care provider or in receiving
a particular type of treatment.” Nofio, 886 P.2d at 720.
¶ 18 In Nofio, the injured claimant “received
approximately 1,000 chiropractic treatments.” Id. at
715. Finding that excessive, the employer invoked the
MUR process. Two of the three MUR panelists
“concluded that chiropractic care should have been
concluded within three to six months of the injury, and
recommended a change of physician and a retroactive
denial of payments.” Id. at 716. The Director adopted
the majority panel’s recommendation and ordered
both a change in medical providers and retroactive
denial of medical bills. The claimant questioned the
loss of his chiropractic treatment without a hearing,
but the supreme court rejected his argument and held
that the claimant was not entitled to a de novo hearing
because his benefits had only been changed but had
not been terminated. Id. at 720. The supreme court concluded that the claimant therefore had not been
deprived of a protected property interest. Id.
¶ 19 Nofio is dispositive here. As in Nofio, the
compensable care claimant received from a treater—
Dr. Lemper—as well as one type of treatment—PRP
injection—have been ordered to cease. But, nothing in
the order denies claimant treatment from other
providers or other types of therapy; her access to other
medical treatment has not been cut off. Indeed,
claimant admitted that employer sent her to other

App.11a
physicians for care. She contends, rather, that only
Dr. Lemper’s care provided her with the relief she
sought, and that only PRP injections alleviated her
pain. Thus, claimant does not assert a loss of all
medical benefits, but rather the loss of this specific
care and these specific benefits. Under Nofio, though,
no party has a property interest in specific care or
specific benefits. Id. at 720. Consequently, claimant
cannot meet her threshold due process burden of establishing that she was deprived of a protected property
interest.
¶ 20 In so concluding, we necessarily reject claimant’s assertion that, unlike in Nofio, cutting off Dr.
Lemper’s care equated to a termination, not just a
change, in her benefits. As the MUR panelists observed,
particularly Drs. Fernandez and Moses, contrary to
claimant’s positive description of the treatment, the
medical records indicate that her condition deteriorated while undergoing PRP injections with Dr.
Lemper. In addition, although claimant implies that
she is being deprived of treatment, she admitted other
physicians have treated her since the MUR decision.
And, the Medical Treatment Guidelines adopted by
the Division of Workers’ Compensation include an
entire section, Rule 17, Exhibit 7, addressing the
diagnosis and treatment of Complex Regional Pain
Syndrome. See Colo. Dept. of Labor, Med. Treatment
Guidelines, Rule 17, Ex. 7, Complex Regional Pain
Syndrome/Reflex Sympathetic Dystrophy Medical
Treatment Guideline. The treatment guidelines incorporate nearly 75 pages of options for the treatment of
CRPS, including other injections such as nerve blocks
or epidural infusions; conservative measures such as
interdisciplinary rehabilitation programs, aquatic

App.12a
therapy and gait training; and more invasive procedures such as neurostimulation, implantation of root
ganglion stimulators, intrathecal drug delivery, and
sympathectomy. The record does not clarify which, if
any, of these treatments claimant’s physicians have
tried since the MUR panel’s recommendation, but it is
clear that treatments other than PRP injections are
available to claimant and that she continues to be
entitled to compensable medical care.
¶ 21 Finally, we cannot, as claimant suggests we
do, simply adopt the reasoning Justice Lohr set forth
in his Nofio dissent. We are bound to follow the
precedent set by the Nofio majority. See In re Estate
of Ramstetter, 2016 COA 81, ¶ 40 (“[T]he court of
appeals is ‘bound to follow supreme court precedent.’”)
(quoting People v. Gladney, 250 P.3d 762, 768 n. 3
(Colo. App. 2010)).
¶ 22 Accordingly, we conclude that claimant has
failed to establish that application of section 8-43-501
violated her right to due process.
III. ALJ Felter Did Not Misapply the Applicable
Legal Standard
¶ 23 Claimant next contends that ALJ Felter
misapplied the law by requiring her to show that the
PRP injections provided her “functional gains.” She
maintains that, under Grover v. Indus. Comm’n, 759
P.2d 705 (Colo. 1988), she only had to show that the
treatment was “reasonably necessary to relieve [her]
from the effects of the work-related injury.” Id. at 711.
¶ 24 Claimant is correct that she is entitled to
treatment “reasonably necessary to relieve [her] from
the effects of the work-related injury.” But as noted in

App.13a
the previous section, numerous types of treatments
are capable of relieving her from the effects of her
work-related injury.
¶ 25 “[T]he purpose of the [medical] utilization
review process authorized in this section is to provide
a mechanism to review and remedy services rendered
pursuant to this article which may not be reasonably
necessary or reasonably appropriate according to
accepted professional standards.” Section 8-43-501(1).
The focus of the process is, then, on the application of
accepted medical standards. As we read ALJ Felter’s
order, when he referred to “functional gains,” he was
merely echoing the medical guidelines offered by the
MUR physicians in their assessments of the effectiveness of PRP injections.
¶ 26 Paraphrasing the physicians’ statements,
ALJ Felter reiterated that the PRP injections “were
excessive and were not providing any functional gain,
which is the standard for the continued use of PRP
therapy.” The physicians, in turn, drew the term from
the accepted Medical Treatment Guidelines. As Dr.
Moses wrote:
The Colorado Medical Treatment Guidelines
are written from an evidence-based review of
the medical literature. It is clear from the
current state of the medical literature that,
from a physiologic basis, . . . the method by
which PRP re-initiates the healing process
should produce some lasting benefit in functional gains or subjective pain relief after the
first three injections. Ms. Madden-Grammer
has received greater than 22 PRP injections
in multiple areas, and she has not demonstrated any long-term benefits whatsoever.

App.14a
Thus, continued PRP injections are not
reasonable or appropriate according to
accepted professional standards given the
lack of any long-term benefit to the patient.
(Italicized emphasis added.) ALJ Felter’s use of the
phrase therefore did not constitute a misapplication of
the law; rather, it was a recognition of the terminology
used by the medical profession to assess the success of
PRP injections.
¶ 27 More importantly, a close reading of ALJ
Felter’s Conclusions of Law makes clear that he did
not apply the “functional gains” standard as a legal
test. Rather, he used it merely to define the medical
standard to which Dr. Lemper needed to be held. In
explaining his holding, ALJ Felter concluded that
claimant “failed to prove, by clear and convincing
evidence, that Dr. Lemper’s treatment of [her] was
appropriate according to accepted professional standards.” (Emphasis added). Thus, the legal standard
ALJ Felter followed was whether claimant had shown,
by clear and convincing evidence, that the MUR panel
incorrectly concluded that Dr. Lemper had not
followed accepted medical standards. And, it was that
medical standard which assessed the success of PRP
injections by analyzing whether a patient experienced
functional gains as a result of those injections.
¶ 28 ALJ Felter was statutorily bound to adhere
to this legal test. Section 8-43-501(5) mandates that
the reviewing fact finder defer to the MUR panel’s
recommendations and only deviate from them if the
challenging party overcomes them “by clear and convincing evidence.”

App.15a
¶ 29 We therefore conclude that ALJ Felter
appropriately followed the statutory test by deferring
to the MUR panel and requiring claimant to show by
clear and convincing evidence that the MUR panel erred
in its recommendations. See § 8-43-501(5). Accordingly,
we agree with the Panel that ALJ Felter did not
misapply the law or hold claimant to an improper
burden of proof.
IV. Substantial Evidence Supports the ALJ’s Findings
¶ 30 Last, claimant contends that “what little
evidence” is contained in the nearly five thousand pages
of medical reports comprising the record, illustrates
that “the only treatment that ‘relieved’ [her] CRPS
symptoms was the PRP therapy provided by Dr.
Lemper.” She argues that consequently, substantial
evidence does not support the ALJ’s factual finding
that “Dr. Lemper’s treatment was not relieving [her]
from the effects of the industrial injury.” We disagree.
A. Standard of Review
¶ 31 Under the MUR statute, a claimant may
seek review of an MUR panel’s recommendation and a
Director’s order before an ALJ. However, claimant
implies that she only needed to establish that Dr.
Lemper’s treatment relieved her of the effects of her
injury to overcome the MUR panel’s recommendations. This is incorrect. The “conclusions of the MUR
committee are ‘afforded great weight.’” Franz v. Indus.
Claim Appeals Office, 250 P.3d 755, 757 (Colo. App.
2010) (quoting § 8-43-501(5)(a)). And, by statutory
mandate, the “party disputing the finding of such utilization review committee shall have the burden of

App.16a
overcoming the finding by clear and convincing
evidence.” § 8-43-501(5)(a).
¶ 32. We must uphold the factual determinations
of the ALJ—including whether a claimant has overcome an MUR by clear and convincing evidence—if
the decision is supported by substantial evidence in
the record. See § 8-43-308, C.R.S. 2018; Leewaye v.
Indus. Claim Appeals Office, 178 P.3d 1254, 1256
(Colo. App. 2007) (“We are bound by the factual determinations of the ALJ, if they are supported by substantial evidence in the record.”); see, e.g., Justiniano
v. Indus. Claim Appeals Office, 2016 COA 83, ¶ 19
(“Whether a party has met the burden of overcoming a
[division-sponsored independent medical examination]
by clear and convincing evidence is a question of fact
for the ALJ as the sole arbiter of conflicting medical
evidence.”). The reviewing court is bound by the ALJ’s
factual determinations even if the evidence was conflicting and could have supported a contrary result. It
is the sole province of the fact finder to weigh the
evidence and resolve contradictions in the evidence.
Pacesetter Corp. v. Collett, 33 P.3d 1230, 1234 (Colo.
App. 2001); Metro Moving & Storage Co. v. Gussert,
914 P.2d 411, 415 (Colo. App. 1995) (reviewing court
must defer to the ALJ’s credibility determinations and
resolution of conflicts in the evidence and may not substitute its judgment for that of the ALJ).
B. Analysis
¶ 33 Here, all three MUR panel members unanimously recommended a change of provider. All three
agreed that Dr. Lemper’s care, and, in particular, the
frequent PRP injections he administered, veered from
and exceeded the Medical Treatment Guidelines.

App.17a
Their opinions must be “afforded great weight.” § 843-501(5)(a).
¶ 34 To counter their opinions, claimant offered
her own personal statement, Dr. Lemper’s statement,
and additional medical records. In those statements,
both she and Dr. Lemper argued that his PRP treatments relieved her from the effects of her work-related
injury. But the ALJ determined that the evidence
claimant offered did not amount to the clear and convincing evidence necessary to overcome the MUR
panelists’ unanimous opinions that Dr. Lemper used
PRP injections excessively. ALJ Felter correctly expressed that the MUR panelists’ opinions must be
given “great weight,” and concluded that because
“there is no clear and convincing evidence to overcome
the recommendation, the Director’s order must be
affirmed.” See § 8-43-501(5)(a). And, because the
weight to be assigned expert medical opinions and
reports is squarely within the ALJ’s discretion, “we
may not substitute our judgment for that of the ALJ”
where the decision is supported by substantial
evidence in the record. Cordova v. Indus. Claim
Appeals Office, 55 P.3d 186, 191 (Colo. App. 2002).
¶ 35 Because the MUR panel’s unequivocal opinions substantially support the ALJ’s factual finding
that claimant failed to clearly and convincingly overcome the Director’s order for a change of provider, we
are bound by it and cannot set it aside. See § 8-43501(5)(a); Justiniano, ¶ 19; Franz, 250 P.3d at 757;
Leewaye, 178 P.3d at 1256.

App.18a
V.

Conclusion
¶ 36 The order is affirmed.

JUDGE LICHTENSTEIN and JUDGE VOGT
concur.

App.19a
OPINION OF THE INDUSTRIAL
CLAIM APPEALS OFFICE
(NOVEMBER 14, 2017)
INDUSTRIAL CLAIM APPEALS OFFICE
________________________
IN THE MATTER OF THE REQUEST FOR
UTILIZATION REVIEW:
CHA TRUST,

Insurer,
v.
LORI MADDEN-GRAMMER,

Claimant,
CONCERNING THE CARE PROVIDED BY:
BRIAN LEMPER, D.O.,

Provider,

________________________

Case Number: 2017CA2066
The claimant seeks review of an order of Administrative Law Judge Fetter (ALJ) dated May 3, 2017,
that affirmed an Order of the Director of the Division
of Workers’ Compensation (Director) in this Medical
Utilization Review (MUR) proceeding. The Director
ordered a change of provider in accordance with § 843-501(3)(c)(I), C.R.S., ordered payment of the medical

App.20a
bills issued by Brian Lemper, D.O. be retroactively
denied after August 20, 2015, in accordance with 8-43501(3)(c)(11), C.R.S., and ordered that the respondent
insurer is not obligated to pay for any of Dr. Lemper’s
medical services rendered after August 20, 2015, in
accordance with § 8-43-501(3)(e), C.R.S. We affirm.
In April 2016, the respondents sought a MUR of
the medical care provided to the claimant by Dr.
Lemper. The Director appointed a three-member MUR
Committee to review the medical records pursuant to
0-43-501, C.R.S. These Committee members were Level2 Accredited Physicians and included Lynne Fernandez,
M.D., Ethan Moses, M.D., and Joseph Fillmore, M.D.
Based on the unanimous findings of the MUR Committee, the Director issued an Order on September 30,
2016, ordering a change of provider under § 8-43-501
(3)(c)(I), C.R.S., retroactively denying payment of Dr.
Lemper’s medical bills after August 20, 2015, under
§ 8-43-501(3)(c)(II), C.R.S., and ordering the respondent insurer not obligated to pay for any of Dr. Lemper’s
medical services rendered after August 20, 2015, in
accordance with § 8-43-501(3)(e), C.R.S. The Director
found that the Committee members agreed that Dr.
Lemper’s care was not reasonably necessary to cure
and relieve the claimant of the effects of the workrelated injury. The claimant appealed the Director’s
MUR Order and the matter was referred to the Office
of Administrative Courts.
Pursuant to 8-43-501(5), C.R.S. the ALJ subsequently performed a record review of the matter to
determine whether the claimant had overcome the
Director’s MUR Order, by clear and convincing evidence.

App.21a
The ALJ subsequently found that the claimant was
involved in a work-related automobile accident on
December 23, 1988. The claimant sustained multiple
injuries in the accident. By 1990, the claimant was
diagnosed with Reflex Sympathetic Dystrophy, which
is now known as Complex Regional Pain Syndrome
(CRPS). The claimant was placed at maximum medical
improvement (MMI) on November 27, 1990.
The claimant eventually moved to Nevada, and she
began treating with Dr. Lemper on January 12, 2009.
Dr. Lemper is a Doctor of Osteopathic Medicine who
practices in Las Vegas. Dr. Lemper began giving the
claimant Platelet Rich Plasma (PRP) injections in
2012. PRP injections involve blood being drawn from
the patient and then the red blood cells are separated
so that only a concentration of platelets and undifferentiated white stern cells remain. The claimant believed
the PRP injections worked and she felt like a different
person.1
The ALI found that Dr. Fernandez determined Dr.
Lemper’s care was not reasonably appropriate. Dr.
Fernandez opined that Dr. Lemper continued to treat
the claimant well outside of the Colorado Medical
Treatment Guidelines (Guidelines), disregarded the
1 The respondents subsequently sought a hearing on whether
additional PRP injections were reasonable and necessary, or related
to the 1988 work-injury. On August 25, 2014, ALJ Allegretti
found that the number of PRP injections already performed by
Dr. Lemper was excessive and no further PRP injections were
reasonable or necessary. On appeal, the Panel affirmed ALJ
Allegretti’s order in Madden-Grammer v. Poudre Valley Hospital, W.C, No. 4-928-088-03 (Jan. 8, 2015). No further appeals
were pursued. Our Order in Madden-Grammer is incorporated
herein.

App.22a
advice of multiple peers, and disregarded ALJ Allegretti’s prior Order which determined that the number
of PRP injections already performed by Dr. Lemper
was excessive and that no further PRP injections were
reasonable or necessary. Dr. Fernandez further opined
that Dr. Lemper’s use of PRP injections was excessive
and was continued without documentation of any
functional or sustained improvement. Dr. Fernandez
was concerned that Dr. Lemper reported improvement
whereas records from other medical professionals
showed that the claimant’s course had steadily declined.
Dr. Fernandez stated that Dr. Lemper’s administration of PRP injections and inhalation PRP therapy
would be considered controversial, at best, especially in
light of the claimant’s failure to show sustained or
functional improvement.
The ALJ also found that Dr. Moses opined that
Dr. Lemper’s treatment began to diverge from reasonable and necessary in August 2015 when the claimant
was “pleading for PRP injections.” He explained that
despite giving the claimant 22 previous PRP injections
into the low back and 19 into the ankle that provided
no long-term benefit, Dr. Lemper decided to move
forward with more PRP injections into multiple body
parts. Dr. Moses felt that the PRP inhalation therapy
was inappropriate and also commented that trigger
point injections with PRP were “unusual.” Dr. Moses
opined that the claimant’s response to the PRP injecttions appeared to be non-physiologic and that Dr.
Lemper had far exceeded the maximum number of PRP
injections, which is generally three. He also opined
there was no documentation or evidence of long-term
functional improvement. Dr. Moses was also concerned

App.23a
that Dr. Lemper showed no consideration for the
Guidelines or the legal process.
The ALJ further found that Dr. Fillmore opined
that Dr. Lemper practiced outside of accepted professional standards, particularly in relation to inhalation
PRP therapy and epidural PRP injections. Dr. Fillmore
believed the treatment provided by Dr. Lemper was
excessive and no long-term functional benefit was
achieved. He stated that there was no reason that the
claimant should continue to be treated by Dr. Lemper
due to the excessive procedures that exposed her to
unnecessary risks.
Based on these three Committee members’ opinions, the ALJ determined that Dr. Lemper’s treatment
of the claimant was not reasonably appropriate or consistent with accepted professional standards “to cure
and relieve the Claimant of the effects of the December
23, 1988 work-related injury.” Additionally, as pertinent
here, when addressing the claimant’s argument that
the MUR Committee members erred when mentioning
“cure” in their reports since her conditions and CRPS
cannot be cured, the ALJ held in pertinent part as
follows:
No physician has stated that the PRP
injections should be discontinued because
they were not curing the CRPS. What they are
saying is that the PRP injections which were
administered by Dr. Lemper were not only
administered in unusual manners and to
unusual body parts, they were excessive and
were not providing any functional gain, which
is the standard for the continued use of PRP
therapy.

App.24a
The ALJ therefore concluded that the claimant
failed to establish it was highly likely, unmistakable,
and free from serious and substantial doubt that the
Director’s MUR Order was incorrect and should be
overturned. He held that the claimant failed to satisfy
her burden of proof by clear and convincing evidence.
I.
On appeal, the claimant argues that the ALJ’s
order is not supported by applicable law, and/or the
ALJ applied an incorrect legal standard when reviewing
the Director’s MUR Order. The claimant specifically
objects to the ALJ’s use of the term “functional gain”
when explaining whether Dr. Lemper’s PRP injections
should be continued. The claimant contends that
whether the PRP injections provided “functional gains”
is not the standard or law that is applicable when
determining whether post-MMI maintenance medical
care is reasonable and necessary. Citing to Grover v.
Industrial Commission, 759 P.2d 705, 711 (Colo. 1988),
the claimant argues that since she was placed at MMI
on November 27, 1990, the applicable standard is
instead whether the medical treatment is “reasonably
necessary to relieve the worker from the effects of the
industrial injury or occupational disease.” Similarly,
the claimant argues the ALJ erred when determining
that Dr. Lemper’s treatment of the claimant was not
reasonably appropriate to “cure and relieve” her of the
effects of her work-related injury. The claimant contends
that such a standard is inconsistent with the holding
in Grover. We are not persuaded by the claimant’s
arguments.
A party may request a MUR to determine if the
care provided to a claimant is “reasonably necessary”

App.25a
or “reasonably appropriate according to accepted professional standards.” Section 8-43-501(1), C.R.S.; Franz
v. Industrial Claim Appeals Office, 250 P.3d 755 (Colo.
App. 2010); see also Colorado Comp. Ins. Auth. v. Nofio,
886 P.2d 714 (Colo. 1994). The Director has authority
to appoint members to an MUR committee, who are
charged with reviewing a claimant’s care and determining, by majority vote, whether a change in provider
should be ordered. Section 8-43-501(3)(a)-(c), C.R.S.;
Franz v. Industrial Claim Appeals Office, supra. The
conclusions of the MUR committee are “afforded great
weight.” Section 8-43-501(5)(a), C.R.S.; see Carlson v.
Industrial Claim Appeals Office, 950 P.2d 663, 665
(Colo. App. 1997).
Additionally, § 8-43-501(5)(a), C.R.S. provides that
any party may appeal the Director’s MUR Order to an
AU, and the party disputing the finding of the
utilization review committee shall have the burden of
overcoming the finding by clear and convincing evidence. Also, pursuant to § 8-43-501(5)(b), C.R.S., when
the issue is the retroactive denial of fees or permitting
an insurer or employer to deny payment for medical
services or care pursuant to § 8-43-501(3)(e), C.R.S.,
then the health care provider may request a de nova
hearing before an ALJ and, again, the findings of the
committee shall be afforded great weight by the ALJ.
A party disputing the finding of the committee in this
regard, shall have the burden of overcoming the
finding by clear and convincing evidence. Section 8-43501(5)(b), C.R.S.
Initially, we note that Dr. Lemper did not request
a de novo hearing before the ALT or appeal the ALJ’s
Order regarding the retroactive denial of his fees or
regarding the insurer’s right to deny payment for his

App.26a
medical services or care pursuant to § 8-43501(3)(e),
C.R.S.
Here, the claimant is confusing the law governing
post-MMI maintenance medical treatment with the law
governing an ALJ’s review of the Director’s MUR Order.
It is true, as the claimant argues, that a claimant is
entitled to receive Grover medical benefits if she
demonstrates that the future medical treatment is or
will be reasonably necessary to relieve her from the
effects of the injury or to prevent deterioration of her
condition. Grover v. Industrial Commission, supra; see
also § 8-43-203(3)(b)(IX), C.R.S. However, the issue
before the MUR Committee and the Director was
whether the treatment provided by Dr. Lemper in the
context of post-MMI maintenance medical treatment
was reasonably necessary or reasonably appropriate
according to accepted professional standards. Section
8-43-501(1), C.R.S. And, the issue before the ALJ here
was not whether the claimant was entitled to postMMI maintenance medical treatment. Instead, as
noted above, the ALJ was determining whether the
claimant satisfied her burden, by clear and convincing
evidence, to overcome the Director’s MUR Order.
Section 8-43-501(5), C.R.S. In upholding the Director’s
MUR Order, the ALJ cited to the correct law and
burden of proof, and found that the claimant failed to
meet her burden in showing that it was unmistakable
and free from serious or substantial doubt that the
Director’s Order was incorrect and should be overturned.
Order at 7-9.
The claimant’s argument notwithstanding, we do
not perceive the ALJ’s use of the term “functional
gain” as error. The ALJ was merely referring to the
MUR Committee members’ use of the phrase or similar

App.27a
language when explaining why Dr. Lemper’s PRP therapy was not reasonable or necessary. In particular, in
his MUR report, Dr. Moses explained that pursuant to
the Guidelines, the PRP injections should provide “some
lasting benefit in functional gains or subjective pain
relief after the first three injections.” He explained
that since the claimant had received greater than 22
PRP injections in multiple areas and had not demonstrated any long-terms benefits, continued PRP injections were not reasonable or appropriate. Dr. Moses’
Utilization Review at 3-5; see also Dr. Fernandez’s
Utilization Review at 10-11; see also Dr. Fillmore’s
Utilization Review at I (“no functional benefits, longterm, was achieved”). See Complex Regional Pain
Syndrome/Reflex Sympathetic Dystrophy Medical
Treatment Guidelines Department of Labor & Employment Rule 17, Ex. 7, 7 Code Colo. Regs. 1101-3. The
Guidelines are regarded as the accepted professional
standards for care under the Workers’ Compensation
Act, and MUR Committee members are directed to
consider them. Department of Labor & Employment
Rule 10-7(B), 7 Code Colo. Regs. 1101-3; Rook v. Industrial Claim Appeals Office, 111 P.3d 549 (Colo. App.
2005).
Similarly, we do not perceive the ALF s use of the
phrase “cure and relieve” in his Order as reversible
error. The ALJ was not requiring the claimant to
demonstrate that Dr. Lemper’s PRP injections would
cure the claimant’s CRPS and other conditions. Rather,
in his Order, the ALJ merely recited well settled
Colorado Workers’ Compensation Law for the proposition that in the context of medical benefits, the respondents are only responsible for medical treatment
that is reasonably necessary to cure and relieve the

App.28a
effects of the industrial injury. See Order at 7 ¶ d;
Order at 8 ¶ f. The ALI recognized that the claimant
made this very same argument in her previous appeal of
ALJ Allegretti’s Order. The ALJ quoted our prior
Order explaining that to “cure and relieve” was not the
applicable standard that ALJ Allegretti was requiring
when determining whether the claimant was entitled to
additional PRP therapy in the context of post-MMI
maintenance medical benefits. See Madden-Grammer
v. Poudre Valley Hospital, supra. Rather, when reviewing the Director’s Order, the ALJ here used the appropriate standards set forth in § 8-43-501(1), C.R.S. and
(5), C.R.S. and stated that the claimant failed to demonstrate, by clear and convincing evidence, “that Dr. Lemper’s
treatment was appropriate according to accepted professional standards.” Order at 8 ¶f. He agreed with the
determinations of the MUR Committee members that
“Dr. Lemper’s services in this case were no longer
reasonably appropriate or necessary” and that the
Director’s MUR Order was correct and should not be
overturned. Order at 9 ¶ f. Since the ALJ applied the
appropriate law under § 8-43-501, C.R.S., we may not
disturb the ALJ’s Order on this ground. Section 8-43301(8), C.R.S
Regardless, even if the ALJ’s use of the phrases
“functional gains” and “cure and relieve” were in error,
we conclude that such error is harmless. Section 8-43310, C.R.S. (harmless error to be disregarded). The
ALJ is not held to a crystalline standard in expressing
findings of fact and conclusions of law. In any event,
as noted above, when reviewing the Director’s MUR
Order, the ALJ applied the correct burden of proof and
the pertinent law regarding whether the services
rendered by Dr. Lemper were “reasonably necessary”

App.29a
or “reasonably appropriate according to accepted professional standards.” Section 8-43-501(1), C.R.S. Further, it is sufficient for the ALJ to make findings concerning that evidence which he considers dispositive
of the issues, which he did here. Magnetic Engineering, Inc, v. Industrial Claim Appeals Office, 5 P.3d 385
(Colo. App. 2000). Consequently, we have no basis to
disturb the ALJ’s Order on these grounds.
II.
The claimant next argues that the ALJ’s Order is
not supported by substantial evidence. She contends
that there is no evidence that would support the ALJ’s
determination that Dr. Lemper’s treatment was not
relieving her from the effects of her industrial injury.
Again, we are not persuaded by the claimant’s argument.
We must uphold the ALJ’s determination if supported by substantial evidence in the record. Section 843-301(8), C.R.S. This standard of review requires us
to defer to the ALJ’s resolution of conflicts in the evidence, credibility determinations, and plausible inferences drawn from the record. Wal-Mart Stores, Inc. v.
Industrial Claim Appeals Office, 989 P.2d 251 (Colo.
App. 1999). In particular, we note that the weight and
credibility to be assigned expert testimony is a matter
within the discretion of the ALJ. Cordova v. Industrial
Claim Appeals Office, 55 P.3d 186 (Colo. App. 2002).
Here, to the extent the claimant argues the ALJ
erred in determining that Dr. Lemper’s treatment was
not “relieving” her from the effects of her industrial
injury, we are not persuaded there is any reversible
error. Again, the claimant is confusing the law
governing post-MMI maintenance medical treatment

App.30a
with the law governing an AL.I’s review of the Director’s
MUR Order. The ALJ here was not deciding whether
the claimant was entitled to post-MMI maintenance
medical treatment. Rather, he was determining
whether the claimant satisfied her burden, by clear
and convincing evidence, to overcome the Director’s
MUR Order. Section 8-43-501, C.R.S. The ALJ’s order
in this regard is supported by substantial evidence. All
three of the Committee members opined that Dr.
Lemper’s treatment of the claimant was not reasonably
appropriate or consistent with accepted professional
standards. Dr. Fernandez stated that Dr. Lemper had
continued to treat the claimant well outside of the
Guidelines, disregarded ALJ Allegretti’s prior order,
and disregarded the advice of multiple peers. She also
explained that Dr. Lemper’s care had been excessive
since he had completed 27 PRP injections without documentation of sustained improvement. Dr. Fernandez
further explained that Dr. Lemper reported improvement in the claimant’s condition, but the medical
records and notes of other medical professionals showed
the claimant’s course had moved steadily downhill.
See Dr. Femandez’s Utilization Review at 10. Similarly,
Dr. Moses opined that the claimant had received
greater than 22 PRP injections in multiple areas but had
not demonstrated any long-term benefits whatsoever.
He explained that continued PRP injections were not
reasonable or appropriate given the lack of any longterm benefit. Dr. Moses’ Utilization Review at 5.2
2 The Guidelines specifically discuss PRP injections in W.C. Rule
16, Exhibit 6, Lower Extremity Injury, pg. 150-51 (Rev. Jan. 19,
2016). The criteria for a second or third injection requires an
indication that the first injection provides “significant functional
benefit”. There is no suggestion this criteria would be inapplicable
when the injections are also used to maintain the claimant’s

App.31a
Additionally, Dr. Fillmore opined that Dr. Lemper’s
treatment of the claimant was excessive and he practiced outside of accepted professional standard particularly as related to PRP injections. Dr. Fillmore’s Utilization Review at 1. Accordingly, we will not disturb the
ALJ’s Order on this ground. Section 8-43-301(8), C.R.S.
III.
The claimant also argues that the MUR process,
as provided in § 8-43-501, C.R.S. et seq., deprives her
of her statutorily created property interests without
due process of law, in violation of the Fourteenth
Amendment. She therefore argues it is facially unconstitutional. It is well settled, however, that administrative agencies do not have the authority to pass on the
constitutionality of statutes. That function may be
exercised only by the judicial branch of government.
Kinterknecht v. Industrial Commission, 175 Colo. 60,
485 P.2d 721 (1971). Thus, we have no basis for
interfering with the ALJ’s order on this ground.
While we may review the constitutionality of an
ALJ’s order as applied, we agree with the respondents’
argument that the Colorado Supreme Court in Colorado

Compensation Insurance Authority v. Nolo, supra,

determined a claimant does not have a protected property interest in the receipt of medical care from “a particular medical provider or to receive a particular type
of treatment.” Id. at 891. Accordingly, the claimant’s
rights to due process are not implicated by the MUR
order in this matter which only withdraws authorization for a particular physician, but not her statutory
right to medical treatment.
condition.

App.32a
IT IS THEREFORE ORDERED that the ALJ’s
order dated May 3, 2017, is affirmed.
Industrial Claim Appeals Panel
David G. Kroll
Kris Sanko

App.33a
ORDER OF THE COLORADO COURT OF
APPEALS DENYING PETITION FOR REHEARING
(JANUARY 10, 2019)
COLORADO COURT OF APPEALS
________________________
LORI MADDEN-GRAMMER,

Petitioner,
v.
INDUSTRIAL CLAIM APPEALS OFFICE
OF THE STATE OF COLORADO;
POUDRE VALLEY HOSPITAL; and
COLORADO HOSPITAL ASSOCIATION TRUST,

Respondents.

________________________

Court of Appeals No. 17CA2066
Before: DAILEY Judge,
LICHTENSTEIN and VOGT, JJ.
Petition for Rehearing DENIED

 Sitting by assignment of the Chief Justice under provisions of
Colo. Const. art. VI, § 5(3), and § 24-51-1105, C.R.S. 2018.

